              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




  Audit Report

The Department's Wildland Fire
Planning and Preparation Efforts




DOE/IG-0760                                 March 2007
                         Department of Energy
                             Washington,   DC 20585

                             March 6, 2007


MEMORANDUM FOR THESECREJARY

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department's
                         Wildland Fire Planning and Preparation Efforts"

BACKGROUND

The Department of Energy complex includes thousands of acres of what is commonly
referred to as wildlands. In these areas, due to the often dry weather conditions,
wildland fires are a natural process that play an important role in the health of arid
ecosystems. While they may be a natural phenomenon, such fires can cause
catastrophic damage to Federal facilities and surrounding communities. In 2000, the
Department experienced several large wildland fires which threatened the safety of
Department personnel, facilities, and equipment at the Los Alamos National
Laboratory, Hanford Site, and Idaho National Laboratory. These fires burned over
2 12,000 acres of Department land, resulting in fire-related costs totaling almost $1 30
million at Los Alamos alone.

In response, the Department initiated a review of the adequacy of its fire safety
programs and emergency management capabilities. The Initial Joirlt Review of
Wildland Fire Safety at DOE Sites (Initial Joint Review) made a number of
recommendations for improvement that were to be implemented in time for the 2001
wildland fire season. The Department also adopted the 2001 Federal Wildland Fire
Managenlent Policy a i d Iinplernenting Actions, which requires sites to develop a risk-
based approach to fire management, identify detailed strategies for fuels management,
and conduct other preparedness activities. This audit was initiated to determine
whether the Department had taken action to identify possible hazards associated with
and mitigate the impacts of wildland fires.

RESULTS OF AUDIT

Three sites included in our review - Los Alamos National Laboratory, Idaho National
Laboratory, and the Nevada Test Site - had made a number of improvements in this
area. However, essential wildland fire mitigation activities involving the assessment
and removal of vegetation and the maintenance of roads had either not been
performed or were not completely effective. For example:

       At Los Alamos National Laboratory, vegetation thinning - a critical activity
       necessary to remove fuel and prevent fires such as those that spread from tree
       top to tree top during the 2000 Cerro Grande fire - had not been performed for
       1,300 acres of canyons;
       Vegetation surrounding the Advanced Mixed Waste Treatment Project - a
       facility key to the Idaho National Laboratory's transuranic waste processing
       and disposal program - had not been adequately removed; and,

       Roads necessary for protecting utilities, establishing fire breaks, and providing
       access for firefighters and equipment at the Nevada Test Site had not been
       upgraded or maintained as required.

We found that contractor officials did not always adhere to established wildland fire
planning and mitigation guidance. In particular, contractors had not used risk-based
principles to prioritize mitigation efforts and had either omitted or not adequately
considered a number of other items specified in Federal policy, Departmental
guidance, and the Initial Joint Review when developing their fire protection plans. In
addition, Federal officials had not always actively monitored contractor wildland fire
protection programs, coordinated protective efforts, or validated the effectiveness of
contractor fire mitigation activities. Without improvements in these areas, the three
sites remain at a higher than necessary risk of damage to property and facilities - and
possible injury of employees and members of the public - from wildland fires.

Our review disclosed that the Department had substantially strengthened its
preparedness activities since the 2000 wildland fire season. In particular, it had
acquired additional equipment for firefighters, and a number of sites had implemented
enhanced training courses for firefighters and continued to place an emphasis on
firefighter and human safety. Even though these and other site-level actions represent
a significant improvement, a number of problems remained. Additional actions are
necessary to improve preparedness measures and to reduce the risk associated with
wildland fire recurrence. Given the reality of the impact of the series of fires in 2000
and the fact that the Western states were struck with a number of fires in 2006, we
made several recommendations designed to help the Department improve the
effectiveness of its wildland fire program.

MANAGEMENT COMMENTS

The National Nuclear Security Administration (NNSA) and the Offices of Nuclear
Energy (NE) and Health, Safety and Security (HSS) each commented on the draft
report. All agreed, at least in part, with the report's recommendations, and
management's planned actions are responsive to the recommendations. In particular,
NNSA officials agreed to ensure that a risk-based approach is utilized, mitigation
activities are considered, and resource allocation decisions are evaluated. They added
that they would coordinate with their own environment, safety and health element to
ensure these wildland fire management requirements are implemented. NE, through
its Idaho Operations Office, and HSS concurred with the report's recommendations in
their entirety. Both NNSA and NE indicated some disagreement with the
representations made regarding their individual sites. To address management
concerns, we held discussions with program officials and modified our report where
appropriate. Management's comments and our responses are summarized in the
report.
cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Under Secretary of Energy
      Chief of Staff
REPORT ON WILDLAND FIRE PLANNING AND PREPARATION
EFFORTS


TABLE OF
CONTENTS


     Site-Level Wildland Fire Planning and Preparation

     Details of Finding ..............................................................................................1

     Recommendations and Comments.....................................................................7


     Appendices

     1. Objective, Scope, and Methodology..........................................................11

     2    Prior Reports ..............................................................................................13

     3. Management Comments ............................................................................15
SITE-LEVEL WILDLAND FIRE PLANNING AND PREPARATION

Mitigation and           All three of the field sites we reviewed had not fully
Maintenance Activities   completed mitigation activities designed to reduce
                         the impact from wildland fire. Specifically, while the
                         Department of Energy (Department) had taken a number of
                         actions to reduce the threats posed by wildland fires, fuel
                         management activities such as the removal and
                         maintenance of vegetation and roads necessary for
                         firefighting were not always adequate.

                                       Los Alamos National Laboratory

                         Despite specific experience with the serious consequences
                         associated with wildland fires, Los Alamos National
                         Laboratory (Los Alamos) had not completed all necessary
                         preparedness and fire mitigation activities. A number of
                         mitigation activities had been planned, but not completed.
                         Most notably, although identified in the site's 2005 fire
                         management plan as critical to preventing devastating fires
                         such as those that spread from tree top to tree top during the
                         Cerro Grande fire, vegetation thinning that would provide
                         fire breaks for 1,300 acres of the site's canyons had not
                         been completed. The removal of vegetation to reinforce an
                         important fire break between the site and the Bandelier
                         National Monument – the ignition point for the Cerro
                         Grande fire – had also not been completed as planned.

                         According to National Nuclear Security Administration
                         (NNSA) officials, more than 10,000 acres of heavily
                         forested land have been treated and other important
                         firebreaks, such as facility defensible space, had been
                         created. As noted in site plans, however, removal of
                         vegetation in general, and particularly for the canyons we
                         identified, could have helped reduce the spread of fires and
                         decrease the danger to firefighters. The site's efforts, even
                         though substantial, covered only about one-third of the
                         acreage requiring mitigation in Fiscal Year (FY) 2005.

                                               Nevada Test Site

                         Similarly, while the Nevada Test Site (Nevada) identified
                         mitigation activities necessary to protect power lines and
                         site roads from wildland fire, not all of these activities were
                         actually completed. For example, although identified as a
                         high risk fire danger, Nevada did not perform vegetation




________________________________________________________________
Page 1                                            Details of Finding
                      removal necessary to reduce the risk of fire damage to
                      certain power and communication lines prior to the 2002
                      wildland fire season. During 2002, a fire occurred in the
                      areas previously identified as high risk, resulting in the loss
                      of about 1.7 miles of power and communication lines that
                      had to be rebuilt at a cost of $585,000 according to site
                      officials. After the 2002 fire, again after another fire in
                      2005, and even though specifically cited as deficiencies in
                      Nevada's vegetation assessments, the site still did not
                      complete needed vegetation removal or upgrade certain
                      roads.

                      According to Nevada's planning documents and a
                      contractor fire department official, Nevada also does not
                      plan to complete all planned mitigation activities in 2006.
                      Adequate maintenance of vegetation adjacent to utilities
                      and repair or upgrade of roads – as demonstrated by the
                      damage sustained during the 2002 and 2005 fires as well as
                      conclusions drawn in annual vegetation assessments – is
                      critical because it reduces fuel sources, provides access for
                      responders, and establishes fire breaks and defensible space
                      (cleared area surrounding an improved property) in which
                      responders may operate.

                      Although not all identified activities were completed,
                      Nevada officials described some positive actions taken
                      after their major fires. For example, site heavy equipment
                      operators are now trained and are capable of improving
                      remote roads during a wildland fire event. The Fire
                      Department has also enhanced its response capabilities with
                      all terrain vehicles that include fire suppression systems.

                                       Idaho National Laboratory

                      The Idaho National Laboratory (Idaho) also had not
                      ensured that vegetation removal activities were performed
                      for roadsides and areas surrounding a major facility. As
                      confirmed by local officials, many of the 26 wildland fires
                      that occurred at Idaho from 2001 to 2005 could have been
                      prevented by a regular roadside mowing program at the
                      start of the wildland fire season. According to site-level
                      fire plans and site officials, had roadside mowing occurred
                      on a regular basis, the likelihood of major fires would have
                      been reduced. While Idaho officials acknowledged that
                      roadside mowing should have been performed on a regular
                      basis by the State of Idaho, at the time of our audit, we
                      noted that only limited action had been taken to interact
________________________________________________________________
Page 2                                            Details of Finding
                      with State officials to increase mowing frequency.
                      Vegetation surrounding the Advanced Mixed Waste
                      Treatment Project – a facility key to Idaho's transuranic
                      waste processing and disposal program – also had not been
                      adequately removed. Despite repeated findings of non-
                      compliance by the Idaho Operations Office, defensible
                      space around this $618 million facility had not been
                      adequately maintained.

                      Site officials told us that one possible action – offering to
                      reimburse the State all or in part for mowing activities –
                      had not been taken. Subsequent to our discussions, Idaho
                      was able to negotiate such an arrangement, although
                      mowing was conducted much later in the fire season than
                      would be desirable. In order to be fully effective, State
                      roadside mowing activities should be conducted at the same
                      time as other mowing activities.

Monitoring and        These problems occurred, at least in part, because
Planning Activities   contractor officials did not adhere to established wildland
                      fire planning and mitigation guidance. In particular,
                      contractors had not used risk-based principles to prioritize
                      mitigation efforts and had either omitted or not adequately
                      considered a number of other items specified in Federal
                      policy, Departmental guidance, and the Initial Joint Review
                      when developing their fire protection plans. In addition,
                      Federal officials had not always actively monitored
                      contractor wildland fire protection programs, coordinated
                      protective efforts, or validated the effectiveness of
                      contractor fire mitigation activities.

                      Implementation of Wildland Fire Management Policies

                      Although specified by Department guidance and considered
                      one of the principal tenants of the 2001 Federal Wildland
                      Fire Management Policy, a comprehensive risk-based
                      evaluation of mitigation activities and the potential
                      consequences of not completing them had not been
                      performed by any of the three sites reviewed. As noted in
                      the Federal policy, risk management should be a foundation
                      for all fire management activities, and that risks must be
                      understood, analyzed, communicated, and managed as they
                      relate to the cost of either doing or not doing a particular
                      activity. While sites had identified certain activities as
                      high-risk or critical or had made some subjective
                      engineering decisions on a case-by-case basis, they had not

________________________________________________________________
Page 3                                            Details of Finding
                      completed a formal risk assessment and had not developed
                      a prioritized list of mitigation activities. Site officials were
                      not specifically aware of a requirement to do so.

                      A number of specific items – some integral to a risk-based
                      approach to wildland fire management – addressed in
                      Federal policy, Departmental guidance, and the Initial Joint
                      Review had also not been adequately considered or had
                      been completely omitted from the site-level plans. For
                      example:

                          •   Neither Nevada nor Idaho had developed a long-
                              term list of activities and associated budget
                              requirements. Such planning is important because
                              not all activities are annual and recurring, and long-
                              term planning ensures that such activities are
                              adequately considered. In contrast, Los Alamos had
                              identified long-term activities including the
                              requirement to update land cover information once
                              every five years.

                          •   Neither Los Alamos nor Idaho planned to update
                              their Fire Plans for FY 2006. Los Alamos officials
                              told us that resources were not available to update
                              the plan, while Idaho officials stated that other
                              priorities had taken precedence.

                          •   Neither Nevada nor Idaho had evaluated the
                              possibility of using prescribed burns to control and
                              manage excess vegetation at the time of our review.
                              Nevada, however, was able to communicate the
                              rationale for not including this strategy in their
                              mitigation activities during discussions we held
                              with them. To their credit, Nevada officials
                              subsequently incorporated details into the Fire Plan
                              during a 2006 update. While Idaho could
                              communicate their rationale for a similar
                              conclusion, incorporation of details continues to be
                              lacking in their Fire Plan. Such consideration is
                              important because prescribed burning is cited as one
                              of the primary methods of vegetation management
                              in Federal policy. While this approach to fire
                              management requires detailed planning and close
                              attention, Federal guidance indicates that these
                              burns can help prevent the quick spread of fires and
                              reduce future mitigation costs. The Lawrence
                              Livermore National Laboratory had taken
________________________________________________________________
Page 4                                            Details of Finding
                             advantage of this technique and had conducted
                             prescribed burns for the past several decades at its
                             7,000 acre remote Explosive Test Facility.

                         •   Our review of hazard and fire protection
                             assessments also disclosed that sites had not
                             evaluated or documented the unique ancillary
                             hazards from wildland fires at their locations.
                             Although sites had conducted extensive evaluations
                             of the direct impacts of wildland fire such as the
                             potential for the flames to reach and ignite facilities
                             and other assets, the Initial Joint Review noted that
                             evaluation and documentation of the potential
                             ancillary hazards is critical to identifying unique
                             challenges associated with wildland fires such as
                             smoke intrusion that can adversely affect facilities'
                             support systems even when the fire is not in the
                             immediate vicinity. While an analysis that
                             considered these particular risks had been
                             performed for the Advanced Mixed Waste
                             Treatment Facility at Idaho, officials told us that it
                             was completed as part of an Operational Readiness
                             Review and was not used for wildland fire
                             preparation and planning. They went on to say that
                             similar analyses had not been conducted at other
                             Idaho facilities.

                         •   Not all sites had included wildland fire and response
                             capabilities in their fire safety and emergency
                             management self-assessments. The inclusion of
                             these areas, even though specifically recommended
                             by the Initial Joint Review, had not been performed
                             for Idaho and Los Alamos.

                         •   Los Alamos also had not performed needed updates
                             to its Land Cover Map database. This database
                             provides important information about fuel
                             conditions and was proven to be a critical
                             component of the protective strategy during the
                             Cerro Grande fire when it was used to model fire
                             behavior and devise response strategies. It also
                             provides the basis for determining needed
                             vegetation reduction activities.




________________________________________________________________
Page 5                                            Details of Finding
                      While contractor officials told us that, in many instances,
                      they had not completed necessary planning or mitigation
                      activities because of a lack of resources, we noted that their
                      very lack of planning – in particular the lack of a risk-based
                      and prioritized remediation schedule – most likely
                      exacerbated or contributed to their inability to obtain
                      funding. Fire protection officials indicated that mitigation
                      efforts had to compete with many other programs funded
                      through site overhead assessments such as building
                      maintenance and procurement, and that once the needs of
                      those programs were considered, insufficient funds
                      remained to address all needed protective activities.
                      Although not a certainty, had officials developed a
                      prioritized schedule of mitigation needs – citing the risk of
                      not completing the needed work – they may have been
                      better positioned to have obtained funding necessary to
                      address the most critical vulnerabilities.

                               Monitoring, Validation, and Coordination
                                       of Mitigation Activities

                      Although required by the Secretarial directive announcing
                      adoption of the 2001 Federal Wildland Fire Management
                      Policy and Implementing Actions by the Department,
                      federal officials at the sites visited had not always reviewed
                      and approved contractor fire plans or mitigation activities
                      for adequacy. Even though this directive had been issued
                      in 2003, officials at each of the sites told us that they were
                      not aware of the requirement for Federal officials to review
                      contractor plans for sufficiency. This lack of knowledge
                      may have been attributable to the fact that the direction to
                      comply with the Federal Wildland Fire Management Policy
                      was never formally incorporated into Departmental
                      directives.

Wildland Fire         Without comprehensive wildland fire planning, the
Risks                 Department's field sites risk catastrophic damage from
                      events similar to the fires of 2000. In that year alone, these
                      types of fires burned over 212,000 acres of Department
                      land at three sites and resulted in fire-related costs totaling
                      almost $130 million at Los Alamos alone. The Department
                      maintains hundreds of thousands of acres that are
                      susceptible to wildland fire, and these types of fires remain
                      a constant threat during the wildland fire season. While
                      this threat cannot be completely eliminated, certain



________________________________________________________________
Page 6                                            Details of Finding
                     enhancements to the Department's wildland fire protection
                     strategies could provide increased protection for the
                     Department's assets, as well as the health and safety of its
                     workers and the public.

                     As demonstrated by recent statistics, the risk of
                     catastrophic damage to the nation at large from wildland
                     fires continues to increase. From January through the
                     beginning of November 2006, wildland fires had consumed
                     over 9,000,000 acres across the country. The average
                     acreage burned by wildland fires from 2000 through 2005
                     amounted to about 73 percent greater than experienced
                     during the 1990s. The threat continues to grow, with the
                     Federal government spending about $1.5 billion in FY
                     2006 fighting wildland fires at various facilities and
                     locations across the country. Comparatively, the Federal
                     government had spent about $900 million in each of the
                     two previous years. Experts have predicted that
                     catastrophic damage from wildland fires probably will
                     continue to increase until an adequate long-term Federal
                     response is implemented.


RECOMMENDATIONS      To ensure that wildland fire management is consistently
                     applied, we recommend that the Chief Health, Safety and
                     Security Officer:

                        1. Ensure that the Federal Wildland Fire Management
                           Policy is specifically incorporated into
                           Departmental directives.

                     To help reduce the risks associated with wildland fires, we
                     recommend that the Administrator, NNSA, and the
                     Assistant Secretary for Nuclear Energy, in coordination
                     with the Chief Health, Safety and Security Officer, require
                     that site Federal fire protection officials:

                        2. Ensure that contractors utilize a risk-based
                           approach, including prioritized mitigation activities,
                           when preparing Fire Plans;

                        3. Ensure that contractor-prepared Fire Plans
                           incorporate or specifically consider planning
                           elements or mitigation activities discussed in the
                           Federal Wildland Fire Management Policy as
                           required by Department guidance;

________________________________________________________________
Page 7                              Recommendations and Comments
                        4. After plans are updated and risk-based principles
                           have been employed, evaluate resource allocation
                           decisions to ensure that critical mitigation or
                           prevention activities are adequately funded; and,

                        5. Review and approve Fire Plans and verify that
                           vegetation removal activities have been conducted
                           as planned.


MANAGEMENT           The NNSA and the Offices of Nuclear Energy and Health,
REACTION             Safety and Security each provided comments on this report.
                     All agreed, at least in part, with the recommendations made
                     in the report.

                     NNSA officials agreed to ensure that a risk-based approach
                     is utilized, mitigation activities are considered, and
                     resource allocation decisions are evaluated. They added
                     that they would coordinate with their own environment,
                     safety and health element to ensure these wildland fire
                     management requirements are implemented. However,
                     they disagreed with some of the specific details contained
                     in the report. In particular, they indicated that the
                     information on the 1,300 acres of canyon at Los Alamos
                     was not presented in context and that the acreage cited
                     represented only a small percentage of the potential threat
                     at that site. In addition, NNSA stated that they do evaluate
                     and document unique hazards and consequences presented
                     by wildland fires; use risk-based techniques to prioritize
                     mitigation efforts by means of engineering assessments of
                     risk; and, have plans to complete additional remediation
                     work prior to the onset of critical fire weather in FY 2007.
                     Finally, NNSA indicated that, in order to recognize the
                     requirements of the Federal Wildland Fire Management
                     Policy, it should be incorporated into Departmental fire
                     protection directives.

                     The Office of Nuclear Energy (NE), through its Idaho
                     Operations Office, concurred with the recommendations
                     and presented a list of proposed actions and completion
                     dates for all of the recommendations. However, NE did not
                     agree with all of the information pertaining to the Idaho
                     site. In supplemental comments, the Idaho Operations
                     Office cited a demonstrated ability to effectively manage
                     the risk of large wildland fires throughout the 1990s that



________________________________________________________________
Page 8                              Recommendations and Comments
                           resulted in no injuries, damage to structures, or significant
                           operational interruptions. Further, the Idaho Operations
                           Office asserted that, as a result of program improvements
                           made since 2000, the Idaho wildland fire management
                           program is based on comprehensive elements identified in
                           the Federal policy and Department guidance.

                           The Office of Health, Safety and Security (HSS) agreed
                           with the audit's overall conclusion and advised that they
                           will coordinate with appropriate program offices to support
                           implementation of the draft audit report's
                           recommendations.


AUDITOR                    Comments from each of the three organizations
RESPONSE                   acknowledge that some changes are needed to improve
                           wildland fire management and management's planned
                           actions are responsive to the report's recommendations. In
                           particular, NNSA and NE agreed to utilize risk-based
                           approaches to fire management, conduct mitigation
                           activities as appropriate, and evaluate resource allocation
                           decisions as necessary. Additionally, HSS agreed to
                           coordinate these activities with program offices. Our
                           specific comments related to the objections raised by
                           NNSA and NE are detailed below.

                           With respect to NNSA's comment that we did not present
                           our findings at Los Alamos in context, we made revisions
                           to the report to more fully describe mitigation activities
                           already conducted and noted that the 1,300 acres we cited
                           had been identified as a critical mitigation activity for site
                           protection. While work at Los Alamos has been
                           substantial, it has not, as noted in our report, been
                           completed and may not have focused on the most critical
                           mitigation activities. During FY 2005, Los Alamos
                           completed mitigation of only about one-third of the acreage
                           contained in site-level plans. In FY 2006, even fewer
                           mitigation activities received adequate attention. These
                           areas where mitigation efforts were not completed include
                           the 1,300 acres of canyons and the critical fire break cited
                           in the report.

                      In addition, we recognize the effort NNSA has put forth to
                      evaluate the risks, hazards, and consequences of wildland
                      fires; however, the activities cited by NNSA in their
                      comments, as confirmed by one of NNSA's fire protection
                      officials, are conducted on an individual basis – such as on
                      an individual facility basis – were subjective in nature, and
________________________________________________________________
Page 9                                                                Comments
                     not documented. This type of analysis is not sufficient to
                     meet the requirements of the Federal policy for a
                     comprehensive risk assessment of all mitigation activities.
                     According to the Initial Joint Review, unique ancillary
                     analyses should be included in hazard and fire protection
                     assessments. In conducting our review, we analyzed these
                     documents for each site visited and did not find evidence of
                     such analyses. Additionally, absent completion of the risk
                     assessment required by the Federal policy, Los Alamos
                     cannot demonstrate the relative importance of the work
                     conducted in comparison to activities not performed.


                     Finally, while we agree that Idaho has demonstrated an
                     ability to respond to large wildland fires in the past and has
                     implemented some program improvements since 2000, our
                     audit identified situations where Idaho has had an increased
                     exposure to damage from wildland fires. For example, in
                     2004 and 2005, the Idaho Operations Office conducted
                     oversight reviews that identified excessive vegetation in
                     several areas of the Advanced Mixed Waste Treatment
                     Facility, and an Operations Office official orally confirmed
                     that certain vegetation removal activities still had not been
                     performed at the time of our site visit. Further, our report
                     identifies instances where Idaho is not in compliance with
                     the Federal Wildland Fire Management Policy and DOE G
                     450.1-4. Specifically, Idaho had not: (1) performed a
                     comprehensive risk-based evaluation of mitigation
                     activities and the potential consequences of not completing
                     them; (2) developed a list of long-term mitigation activities
                     and associated budget requirements; (3) updated their Fire
                     Plans for FY 2006; and, (4) documented the rationale for
                     using or not using prescribed burns in the Fire Plan.

                     Management's comments are included in their entirety in
                     Appendix 3 and have been incorporated into the body of
                     the report where appropriate.




________________________________________________________________
Page 10                                                Comments
Appendix 1

OBJECTIVE              The objective of our audit was to determine whether the
                       Department had taken action to identify possible hazards
                       and mitigate the potential impacts of wildland fires.

.
SCOPE                  The audit was performed between September 2005 and
                       December 2006. We conducted work at Headquarters in
                       Washington, D.C., and Germantown, MD; Idaho National
                       Laboratory in Idaho Falls, ID; Los Alamos National
                       Laboratory in Los Alamos, NM; and, the Nevada Test Site
                       near Mercury, NV.


METHODOLOGY            To accomplish our audit objective, we:

                          •   Reviewed regulations and policies and procedures
                              relevant to the Department of Energy's wildland fire
                              program;

                          •   Reviewed site specific guidance and policies and
                              procedures;

                          •   Held discussions with Headquarters program
                              officials regarding wildland fire at Department sites;

                          •   Held a discussion with officials from the
                              Government Accountability Office about work they
                              have conducted related to the Federal government's
                              implementation of wildland fire programs;

                          •   Held discussions with officials from the Idaho
                              Operations Office, and the Los Alamos and Nevada
                              Site Offices regarding wildland fire programs in
                              place at Department sites;

                          •   Held discussions with officials from the Idaho and
                              Los Alamos National Laboratories, and the Nevada
                              Test Site and reviewed relevant documentation
                              regarding their planning and mitigation activities for
                              wildland fires;




________________________________________________________________
Page 11                             Objective, Scope, and Methodology
Appendix 1 (continued)


                          •   Reviewed site specific planning documents,
                              analyses, and reports of fire damages and response
                              evaluations;

                          •   Participated in site tours to examine mitigation
                              activities and vegetation conditions;

                          •   Held a discussion with Office of Independent
                              Oversight officials that participated in the 2000
                              Initial Joint Review, and reviewed field site
                              responses, implementation plans, and results related
                              to the Review; and,

                          •   Reviewed historical wildland fire information from
                              the National Interagency Fire Center.

                       The audit was conducted in accordance with generally
                       accepted Government auditing standards for performance
                       audits and included tests of internal controls and
                       compliance with laws and regulations to the extent
                       necessary to satisfy the audit objective. Additionally, we
                       assessed performance measures established under the
                       Government Performance and Results Act of 1993. While
                       specific performance measures concerning the wildland fire
                       program did not exist, performance in this regard was
                       measured as an element under environment, safety, and
                       health performance. Because our review was limited, it
                       would not necessarily disclose all internal control
                       deficiencies that may have existed at the time of our audit.
                       We did not use computer processed data during the review;
                       therefore, we did not test for data reliability.

                       We held an exit conference with officials from the Offices
                       of Health, Safety and Security and Nuclear Energy, as well
                       as, representatives from the Idaho Operations Office on
                       February 28, 2007. NNSA elected to waive the exit
                       conference.




________________________________________________________________
Page 12                             Objective, Scope, and Methodology
Appendix 2


                                    PRIOR REPORTS


Government Accountability Office

   •   Wildland Fire Management: Important Progress Has Been Made, but Challenges
       Remain to Completing a Cohesive Strategy (GAO-05-147, January 2005). This
       review found that the Forest Service in the Department of Agriculture and land
       management agencies in the Department of the Interior have made important progress
       in responding to wildland fires. These agencies had adopted various national strategy
       documents addressing the need to reduce wildland fire risks; established priorities for
       protecting communities in the wildland-urban interface; and increased efforts and
       amounts of funding committed to addressing wildland fire problems. However, none
       of these documents constituted a cohesive strategy that explicitly identified the long-
       term options and related funding needed to reduce fuels in national forests and
       rangelands and to respond to wildland fire threats. Both the agencies and the Congress
       need a comprehensive assessment of the fuel reduction options and related funding
       needs to determine the most effective and affordable long-term approach for
       addressing wildland fire problems.

   •   Wildland Fire Management: Additional Actions Required to Better Identify and
       Prioritize Lands Needing Fuels Reduction (GAO-03-805, August 2003). The review
       found that the Forest Service and Interior had identified three categories of land for
       fuels reduction: (1) lands with excess fuels buildup; (2) lands in the wildland-urban
       interface where federal lands surround or are adjacent to urban development and
       communities; and, (3) lands where vegetation grows rapidly and requires regular
       maintenance treatments to prevent excess fuels buildup. However, the agencies had
       not yet reliably estimated the amount or identified the location of these lands. Local
       land management units prioritized lands for fuels reduction using a variety of methods,
       including professional judgment and ranking systems. Prioritization methods varied,
       in part, because the Forest Service and Interior had not issued specific national
       guidance on prioritization. Without specific national guidance on prioritization, it was
       difficult for the Forest Service and Interior to ensure that the highest priority fuels
       reduction projects nationwide were being implemented.

   •   Wildland Fire Management: Improved Planning Will Help Agencies Better Identify
       Fire-Fighting Preparedness Needs (GAO-02-158, March 2002). The Forest Service
       and Interior had not effectively determined the amount of personnel and equipment
       needed to respond to and suppress wildland fires. Although the agencies had acquired
       considerably more personnel and equipment than were available in 2000, they had not
       acquired all of the resources needed to implement the new strategy. Also, despite




___________________________________________________________________
Page 13                                                  Prior Reports
Appendix 2 (continued)

     having received substantial additional funding, the two agencies had not yet developed
     performance measures. The Forest Service simply measured the amount of fire-
     fighting resources it will be able to devote to fire-fighting at each location, regardless
     of risk. Without results-oriented performance measures, it was difficult to hold the
     Forest Service accountable for the results it achieves. Further, the Forest Service and
     the Interior agencies used different methods to report fire-fighting personnel costs - an
     approach that was not in keeping with policies requiring coordination and consistency
     across all aspects of fire management, including accounting for fire-related costs.




___________________________________________________________________
Page 14                                                 Prior Reports
Appendix 3




___________________________________________________________________
Page 15                                        Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 16                                        Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 17                                        Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 18                                        Management Comments
Appendix 3 (continued)




___________________________________________________________________
Page 19                                        Management Comments
                                                             IG Report No. DOE/IG-0760

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
